No. 20A6
IN THE

Supreme Court of the United States
EARLENE PETERSON, KIMMA GUREL, AND MONICA VEILLETTE,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.
On Application for Stay
REPLY IN SUPPORT OF EMERGENCY APPLICATION TO STAY THE
MANDATE AND VACATE THE DECISION OF THE SEVENTH CIRCUIT
COURT OF APPEALS PENDING A WRIT OF CERTIORARI
H. BAKER KURRUS
H. BAKER KURRUS, PLLC
10816 CRESTDALE LANE
Little Rock, AR 72212
Tel: (501) 831-0325

MATTHEW M. COLLETTE
COUNSEL OF RECORD
JONATHAN S. MASSEY
KATHRYN A. ROBINETTE
MASSEY & GAIL LLP
1000 Maine Ave. SW, Suite 450
Washington, D.C. 20024
Tel: (202) 652-4511
mcollette@masseygail.com
Counsel for Petitioners

July 13, 2020

ARGUMENT
The government treats the family of the murder victims here as if they were
an inconvenience. They are not. They are the same people the government contacted
when Nancy Mueller, Sarah Powell, and William Mueller went missing, when the
bodies of their loved ones were found in a lake, and when it was time for trial. It
was these three women alone who sat through all the evidence introduced at the
trial and two death penalty sentencings and who have followed, with the help of the
government all post-conviction proceedings until this point. When Respondents
refer in their pleadings to “an” eight-year- old and her parents” it is their child, their
grandchild, their sister they would render anonymous. And, as noted in our
application, the government cited their interests repeatedly as it has defended Lee’s
sentence in multiple courts and in scheduling this execution.
Now, when these same people have again asserted their interest in and right
to be present for the last part of this process, the Department regards them as an
inconvenience. They are suddenly mere “third parties” whose status seems to
depend on what the government thinks about their views on whether Mr, Lee
should be executed.

But whether or not any of the petitioners “oppose the

execution,” Govt. Resp. at 4, they have a right to attend: to grieve for their lost love
ones, to find peace, and to mourn their losses together. Yet in insisting on an
execution when the nation’s health officials tell Mrs. Peterson, Ms. Gurel, and Ms.
Veillette not to travel, and to avoid crowds and COVID hotspots, the government
writes them out of the picture entirely.
2

The government’s veiled suggestions that petitioners are attempting to
disrupt the process or delay the execution for improper reasons are specious. The
resurgence of the COVID-19 virus is as unprecedented as it is serious. Indeed, Mrs.
Peterson did not ask Respondents to “reschedule” when she had heart surgery in
the fall and could not attend the December planned execution of her family’s killer.
She wishes to attend this execution, but simply cannot do so due to the
government’s reckless decision.1
The government, despite its rhetoric concerning its support for victims’ family
members, has refused to take petitioners concerns seriously.

Instead, they

minimize their situation (and their suffering) and respond with a parade of
horribles that reflects a misunderstanding of petitioners’ claims.

The district

court’s injunction does not require a lengthy stay of Lee’s execution “until treatment
or a vaccine is available” (Resp. at 10). In fact, petitioner’s motion for a preliminary
injunction requested a delay “until such time as treatment or a vaccine for COVID19 is available or the current surge in the virus has receded or the threat to their
health posed by the ongoing COVID-19 pandemic has otherwise abated.” Dist. Ct.
Dkt. 17, at 1 (emphasis added); see also Dkt. 17-3, at 5 (proposed order). More to
the point, the district court made clear that it would “vacate the injunction upon a
The government notes that other victims, referring possibly to two family
members of William Mueller, have accepted the pandemic’s risks. Petitioners have
no interest in denying their right to attend and mourn together as they too would
like. But 81-year-old family matriarch Earlene Peterson should not have to risk her
health in order to be present. And the government makes no effort to show that any
other family members will be harmed by a delay, or even that they would oppose
petitioners’ request.
1

3

showing by the defendants of an agency action setting a date for Mr. Lee's execution
in accord with the FDPA and demonstrating reasonable consideration of the
plaintiffs' right to be present for the execution.” Appx. 24. Petitioners merely seek
to delay the execution to a time when it is safe to travel and attend and not in a
time of a resurgent virus surging throughout much of the Nation. That is all the
district court’s injunction requires.
And neither petitioners’ argument nor the district court decision will lead to a
regime in which “the availability and travel preferences of every person who might
witness the execution” could be used to manipulate or delay the scheduling of an
execution.

The arbitrary and capricious standard shields the government from

scheduling decisions that fail to take into account mundane scheduling matters.
But a scheduling decision that effectively deprives victims’ close family members of
their right to witness the execution by disregarding the substantial risks of COVID19 to vulnerable individuals fails under that standard.
As the government points out, the Seventh Circuit panel obviously had strong
views regarding the merits of petitioners’ case.

Respectfully, those views are

mistaken. The Federal Death Penalty Act (FDPA), 18 U.S.C. § 3596, means more
than the government and the court of appeals acknowledge.

Indeed, the

government’s technical arguments on the limits of the FDPA (upon which three
D.C. Circuit judges could not agree) demonstrate why this issue is worthy of
certiorari.

More important, under the controlling interpretation of the FDPA,

manner includes binding state law on how the execution is to proceed. And here the

4

mandatory procedures of Arkansas law clearly require the presence (if they so
choose) of family members such as petitioners. That is precisely the sort of positive
law from binding state statutes that Judge Rao found encompassed in the FDPA
and which governs here. In re Bureau of Prisons’ Execution Protocol Cases, 955
F.3d 106, 130 (D.C. Cir. 2020) (Rao, J. Concurring). This is not about following
“every nuance” of state procedure; it is about following a clearly applicable state
statute on the manner in which the sentence is implemented.
Moreover, federal regulations govern who “shall be present” at the
execution. See 28 C.F.R. § 26.4. And, as we have noted, BOP’s Execution Protocol
sets forth precisely who the citizen witnesses provided for in the regulation are
intended to be: “in identifying these [eight citizen] individuals, the Warden, no later
than 30 days after the setting of an execution date, will ask the United States
Attorney for the jurisdiction in which the inmate was prosecuted to recommend up
to eight individuals who are victims or victim family members to be witnesses of the
execution).” Appx. 70-72 (emphasis added).
The government also seeks to dismiss the language of BOP’s mandatory
protocol, which states that BOP “will” ask the U.S. Attorney to recommend up to
eight individuals “who are victims family members” to be witnesses pursuant to 28
C.F.R. § 26.4. Govt. Br. at 18. But the government’s contention that BOP is not
required to choose them makes one wonder what purpose this directive serves.
Moreover, the fact that BOP has some discretion does not mean it has unlimited,
unreviewable discretion.

Here, BOP had selected petitioners pursuant to the

5

regulations and the protocol to attend this and the previous execution. In these
circumstances, it was an abuse of discretion to schedule the execution at a time in
which attendance would endanger them.
With respect to the balance of harms, the government incorrectly focuses on
its general interest in the timely carrying out of a capital sentence and fails to
articulate why their interest in executing Mr. Lee today is outweighed by the
victims’ interest in obtaining closure and peace by attending this execution at a
future date, when it is safe to do so. Indeed BOP’s own declarations demonstrate
that the risk of traveling to and attending this execution entails more than the mere
“possibility” of viral exposure (Opp. at 28): an individual who has attended meetings
with the very staff who will carry out this execution has tested positive for COVID19. There is at least one confirmed COVID-19 death on prison grounds, and cases
are on the rise across the United States. The lives and health of petitioners and
others attending the execution, together with the health of those they will interact
with in airports and other public places, outweigh the government’s interest in
holding an execution during a new resurgence of the pandemic where the nation’s
health officials warn against travel. Postponing the execution until a time when
Petitioners can safely attend serves the public interest, as well. Cf. Banzhaf v.
F.C.C., 405 F.2d 1082, 1096-97 (D.C. Cir. 1968) (“Whatever else it may mean,
however, we think the public interest indisputably includes the public health. There
is perhaps a broader public consensus on that value, and also on its core meaning,
than on any other likely component of the public interest.”).

6

CONCLUSION

For the foregoing reasons, this Court should stay the order of the Seventh
Circuit pending petitioners’ forthcoming petition for a writ of certiorari.

Respectfully submitted,

H. Baker Kurrus
H. Baker Kurrus, PLLC
10816 Crestdale Lane
Little Rock, AR 72212
(501) 831-0325
bkurrus@aol.com

/s/ Matthew M. Collette
Matthew M. Collette

Counsel of Record

Jonathan S. Massey
Kathryn A. Robinette
MASSEY & GAIL LLP
1000 Maine Ave SW, Suite 450
Washington, D.C. 20005
(202) 652-4511
mcollette@masseygail.com
jmassey@masseygail.com
krobinette@masseygail.com

July 13, 2020

Counsel for Petitioners

7

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I, Matthew Collette, hereby certify
that a copy of the foregoing was served via e-mail and USPS mail on July 13, 2020 to:

JEFFREY B. WALL
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

/s/ Matthew M. Collette
Matthew M. Collette

